   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
        FY 2004 AND FY 2003
      Federal Aviation Administration

       Report Number: QC-2005-006
      Date Issued: November 10, 2004
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of                        Date:    November 10, 2004
           Audited Financial Statements for
           FY 2004 and FY 2003, Federal Aviation
           Administration
           QC-2005-006

  From:    Kenneth M. Mead                                       Reply to
                                                                 Attn. of:   JA-20
           Inspector General

    To:    The Secretary
           Federal Aviation Administrator

           The audit of the Federal Aviation Administration’s (FAA) Financial Statements as
           of and for the years ended September 30, 2004, and September 30, 2003, was
           completed by KPMG LLP (KPMG) of Washington, DC (see Attachment). We
           performed a quality control review of the audit work to ensure that it complied
           with applicable standards. These standards include the Chief Financial Officers
           Act; Government Auditing Standards; and the Office of Management and Budget
           Bulletin 01-02, “Audit Requirements for Federal Financial Statements.”

           The KPMG audit report concluded that the financial statements presented fairly, in
           all material respects, the financial position of the FAA as of September 30, 2004
           and September 30, 2003, and its net costs, changes in net position, budgetary
           resources, and reconciliation of net costs to budgetary obligations, for the years
           then ended, in conformity with accounting principles generally accepted in the
           United States. We concur with this unqualified or “clean” opinion.

           FAA deserves credit for addressing significant challenges this year. FAA
           encountered difficulties when it implemented the Department of Transportation’s
           (DOT) Delphi accounting system and FAA’s new procurement system in
           November 2003. Because it has implemented more disciplined financial
           management processes over the last 3 years, for the most part, FAA was able to
           identify problems, track financial activities that were not properly processed, and
           develop timely corrective action plans.
                                                                              2


The report presented no material internal control weaknesses but did present the
following five reportable internal control conditions:

      1. Implementation of a New Financial Accounting System,
      2. Cost Accounting Information,
      3. Reconciliations of Fund Balance with Treasury,
      4. Information Technology Controls over FAA and Third-Party Systems
         and Applications, and
      5. Cost Reimbursable Contracts.

The report also identified instances of noncompliance with the Federal Financial
Management Improvement Act of 1996. FAA’s financial management system did
not substantially comply with Federal financial management system requirements.

KPMG made 23 recommendations for corrective actions. We agree with the
KPMG recommendations. In a November 1, 2004 response to the draft report, the
FAA Chief Financial Officer concurred with the reportable conditions and non-
compliance, agreed with the recommendations, and committed to implement
corrective actions during FY 2005. In accordance with DOT Order 8000.1C, the
corrective actions taken in response to the recommendations are subject to
follow-up.

In our opinion, the audit work performed by KPMG complied with applicable
standards.

We appreciate the cooperation and assistance of FAA and KPMG representatives.
If we can answer any questions, please call me at (202) 366-1959 or Ted Alves,
the Assistant Inspector General for Financial and Information Technology Audits,
at (202) 366-1496.

Attachment

                                        #




The attached KPMG, LLP audit report is an excerpt from the FY 2004 FAA
Performance and Accountability report which can be located at www.faa.gov/aba.
